Debevoise & Plimpton LLP
801 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
+1 202 383 8000

David A. O’Neil
Partner
daoneil@debevoise.com
+1 202 383 8040

July 6, 2021
Hon. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Eni USA Gas Marketing LLC v. Gulf LNG Energy, LLC, et al., No. 20-1462

Dear Mr. Harris:
I am writing on behalf of respondents to request an extension of time in which to
file the brief in opposition to the petition for a writ of certiorari in this case. The Court
docketed the petition on April 19, 2021, and requested a response on June 10, 2021. The
brief in opposition is due July 12, 2021.
I am requesting a 30-day extension, through August 11, 2021. The extension is
necessary because of pre-existing commitments and the press of other business. Counsel
for petitioner does not object to this extension.
Sincerely,

David A. O’Neil
cc: Joseph J. LoBue

